            TESTIMONY OF EVELYN R. KLEMSTINE

              ASSISTANT INSPECTOR GENERAL

                       FOR AUDITS

              OFFICE OF INSPECTOR GENERAL

              U.S. DEPARTMENT OF STATE AND

         THE BROADCASTING BOARD OF GOVERNORS



                      BEFORE THE



             U.S. HOUSE OF REPRESENTATIVES
    COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM
    SUBCOMMITTEE ON TECHNOLOGY, INFORMATION POLICY,
 INTERGOVERNMENTAL RELATIONS AND PROCUREMENT REFORM


                          ON



ARE GOVERNMENT CONTRACTORS EXPLOITING WORKERS OVERSEAS?

    EXAMINING ENFORCEMENT OF THE TRAFFICKING VICTIMS
                    PROTECTION ACT



                   NOVEMBER 2, 2011



                           1
      Thank you Chairman Lankford, Ranking Member Connolly, and Members of

the Subcommittee for the opportunity to discuss our office’s oversight of the

Department’s compliance with the Federal Acquisition Regulation (FAR) clause

52.222-50, “Combating Trafficking in Persons (TIP).”


      OIG has actively conducted TIP oversight to include making it an area of

emphasis for audits, inspections, and evaluations. We appreciate the opportunity

to present the findings of our October 2011 audit on the Bureau of East Asian and

Pacific Affairs’ (EAP) compliance with TIP requirements and our January 2011

evaluation on TIP in various Arab States of the Gulf.


      The objective of our October 2011 audit was to measure the extent to

which Department of State (Department) personnel and contractors were

complying with laws, regulations, and policies established to prevent and detect

TIP activities on Department-awarded contracts. While the audit team did not

find evidence “of any form of TIP involving Department employees or

contractors,” it remains clear from the audit that the Department must

strengthen its approach to employ the “zero tolerance” policy regarding TIP.


      Specifically, we found that Department employees in EAP and the Asia-

Pacific region were not uniformly aware of what constitutes TIP activity, the


                                         2
penalties for TIP violations, where to report allegations of violations, and that the

TIP policy applies to Department contractors. The audit team, with the assistance

of EAP, distributed a “General Awareness Survey” to employees in the Asia-Pacific

region to assess whether the employees were aware of issues related to TIP. A

total of 1,702 Department employees responded to that survey. The survey

disclosed that 46 percent of the Department employees either were “somewhat

aware” or “not at all aware” of the -zero tolerance policy- for TIP; 43 percent of

the employees would not know where to report a TIP violation; and 79 percent of

the employees had not received training related to the awareness, prevention, or

reporting of TIP violations.


      The audit team concluded that the lack of awareness occurred because the

Department had not established and communicated a formal TIP policy to its

employees that included a definition of TIP activities and a mechanism for

reporting suspected violations. In addition, although the Department’s code of

conduct prohibits employees from acquiring a commercial sex act and using

forced domestic labor, it does not specifically address TIP, nor does it require

employees to report suspected TIP violations. The lack of clarity in the code of

conduct compounded with the absence of knowledge regarding TIP-related

activities could lead to TIP violations, since many incidents may go unreported.

                                          3
      In addition to Department employees’ lack of awareness, we found that

contractors in the Asia-Pacific region were not always aware of or complied with

their obligations under FAR clause 52.222-50. We conducted site visits and met

with 24 contractors whose contracts included the FAR clause and found that 20

contractors (83 percent) had not notified their employees of the U.S.

Government’s TIP policy and 22 contractors (92 percent) had not informed their

employees of the consequences for violating that policy. Additionally, six

contractors hired subcontractors for the performance of services; however, none

of those contractors had included the required FAR clause in their subcontracting

agreement.


      A contributing factor to the contractors’ lack of awareness was the fact that

Department contracting officials did not consistently include FAR clause 52.222-

50 in Department contracts. Of 41 contracts reviewed in the Asia-Pacific region,

we found that 11 contracts (27 percent) did not contain the clause and eight

contracts did not contain the correct version of the clause. Further, even when

the clause was contained in contracts, Department contracting officials did not

monitor contractor compliance with the clause. As a result, Department

contractors, subcontractors, and their respective employees may not be aware of

the U.S. Government’s zero tolerance policy regarding TIP.

                                         4
      Also, during 2010 and 2011 inspections, the inspectors also found that

embassy contracts did not always include FAR clause 52.222-50. In FY 2010,

the inspectors reviewed contracts at 20 embassies and consulates and found that

25 percent of the posts had contracts that did not include the required FAR

clause. In FY 2011, teams addressed the same issue at 16 overseas locations and

found that 19 percent of the posts had contracts that did not include the required

FAR clause. When the inspectors found contracts that did not include the FAR

clause, embassy staff immediately began the process of modifying the contract.


      During the course of our October 2011 audit, the Department issued

Procurement Information Bulletin (PIB) No. 2011-09, “Combating Trafficking in

Persons,” which requires contracting officer’s representatives (CORs) to ensure

that all solicitations and contracts over the micro-purchase threshold ($3,000)

contain FAR clause 52.222-50. The publication also provides guidance to CORs on

how to monitor contracts for TIP compliance. We expect that the new guidance

will enhance the Department’s process for monitoring contracts for TIP

compliance.


      In our October 2011 audit report, we recommended that the Department

implement a policy in the Foreign Affairs Manual (FAM) on TIP, expand the


                                         5
Department’s code of conduct to prohibit TIP activities, and designate an office

responsible for employees and contractors to report instances of TIP. In addition,

the Office to Monitor and Combat Trafficking in Persons (G/TIP) should, in

collaboration with the Foreign Service Institute, expand trafficking in persons

training to all Department employees.

      In response to the audit, the Ambassador for G/TIP stated that his office

found the report helpful, if “somewhat troubling,” and that there was

“undoubtedly a need for increased awareness and understanding of human

trafficking in the State Department.” The Ambassador for G/TIP generally agreed

with all the report’s recommendations and stated that he was in the process of

taking corrective actions.


      In addition to our October 2011 audit report, our office in January 2011

released an evaluation conducted on six contracts in Kuwait, Oman, Saudi Arabia,

and the United Arab Emirates to assess the risk of TIP-related activities occurring

within these Arab States of the Gulf. Although we found no direct evidence that

contractors violated provisions of FAR clause 52.222-50, several findings

increased the likelihood that a TIP violation could occur.




                                          6
      Specifically, the evaluation team found that 77 percent of contract

employees interviewed had to pay fees up-front during recruitment, which could

indicate an increased risk of debt bondage, and that every contractor reviewed

confiscated workers’ passports. In addition, contract workers at all embassies and

consulates general expressed frustration with inconsistent payment, confusing

pay stubs, and withheld wages. Also, more than 70 percent of the workers

interviewed reported that they lived in overcrowded, unsafe, or unsanitary

conditions.


      These conditions occurred because CORs did not have standard procedures

to monitor the implementation of the FAR clause, and as a result, TIP monitoring

was ineffective. We made recommendations to the embassies to strengthen TIP

monitoring procedures and also recommended that the Department provide

detailed guidance on how to monitor contractors’ practices and activities

regarding TIP. In general, the Department agreed with the recommendations and

has either implemented, or is in the process of implementing, those report’s

recommendations.


      The practices of some contractors can negatively affect foreign workers and

reflect poorly on the Department. We believe that the adoption of a strong TIP


                                        7
program, to include increasing Departmental employees’ awareness and the

implementation a mechanism to report suspected TIP violations, as well as a

strong monitoring program of Department contractors, will aid in preventing TIP

and help ensure that foreign workers are treated fairly and within the law.


      Once again, thank you, for the opportunity to present our work on this

important topic. I am pleased to answer any questions you may have.




                                         8
